                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A02100050
                                                                                   11           Page 1 of 1
                                                                                                                  11
           We received an allegation that a Research Experiences for Undergraduates (REU) proposal1 was
           plagiarized from a successful REU proposal2written by scientists at another institution. We
           compared the two proposals and found approximately 267 lines (roughly six and a half pages) of
           identical and/or substantially similar text. In response to our inquiry letter, the PI and the co-PI
          '(the subject3) stated that they obtained a copy of the source proposal from the author, made an
           electronic copy, and used this as the basis for their proposal. We referred the matter to the
           University.

          After concluding there was substance to the allegation, the University withdrew the proposal and
          appointed an Investigation Committee to conduct the investigation. The Committee concluded
          that the Subject committed plagiarism constituting research misconduct. The University took
          action against the Subject by 1) reprimanding him, and, for a period of two years, 2) requiring
          that an institutional official certify to the accuracy of reports generated under any Federal awards
          and provide assurance of compliance with all relevant institutional policies, regulations and
          guidelines; 3) requiring that two institutional officials review all requests for Federal funding
          prior to submission; and 4) prohibiting him from serving as an NSF reviewer.

          Consistent with the University's actions, we recommended NSF take the following actions:

               1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
 I                misconduct against him.
               2. For a period of two years, require that an institutional official submit to our office, in
                  conjunction with any proposal submission involving the Subject as PI or co-PI, written
                  assurance that the proposal adheres to the rules of proper scholarship and attribution as
                  required by the NSF Grant Proposal Guide.
               3. For a period of two years, prohibit the Subject from serving as an NSF reviewer, advisor,
                  or consultant.
               4. Require that the Subject complete ethics training.

          NSF accepted our recommendations in full and issued a finding of research misconduct in a letter
          dated December 28, 2004. Our investigation report, NSF's letter, and this memo constitute the
          closeout for this investigation.




 NSF OIG Form 2 (11/02)
                                                                                . . .
          ....                                                                                  i


      .   .
                  ..
                                                               .        .           .   '           NATIONALSCIENCE FOUNDATION
                   .               .                                            .           .       .        .    4201 WILSON BOULEVARD
     ..
                           .           .                                                                         ARLINGTON, VIRGINIA 22230




            OFFICE OF THE
           DEPUTY
            .
          . .  .
                  DIRECTOR
                                                                                                                                      DEC 2 8 2004




                                                                            -       .
     ~ep&ent of:                                     .... -
                                                                    .........                           ..

                                               -.
              .    .   .       .           . . .. . . ... . ... . . . -.,
                                                                        . ............




                               Re: Notice of Misconduct in Science Determination

     Dear Dr.

                               0x1or about September 13, 2002, you submitted a proposal to the ~atibdalScience
     Foundation  ('NSF"') entitled "
      . .   -
                ." As documented in the attached ln&stigati;e ~ e p o r t ~ r e p a r ebyd NSFs Office of
     Inspector General ("OIG"), your proposal contained plagiarized text.



             Under NSF's regulations, "research misconductyyis defined as "fabrication, falsification,
     or plagiarism in proposing or performing research h d e d by NSF ..." 45,CFR§ 689.1(a). NSF
     defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
     without giving appropriate credit." 45 CFR 8 689.1(a)(3). A finding of research misconduct
     requires that:
.-           -(I) There be a significant departure h m accepted practices of the relevant research
                  community; and
                                   (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                                   (3) The allegation be proven by a preponderance of evidence.

     45 CFR 0 689.2(c).                                                                                                                              .   .


            Your proposal contains verbatim and paraphrased text fiom a proposal that was
     previouslysubmitted to NSF. By submitting a proposal to NSF that copies the ideas or words of
     ,another without adequate attribution, as described in the OIG Investigative Report, you
            . .




                                                                                                                      Page 2
                                           .someone else's work as your own In addition, you failed'to acknowledge or
                                               of the source proposal in your proposal. Your conduct unquestionably
                                                                                            '




                                              sm. I therefore conclude that your actions meet the definition of "rksearch
                                                 ,inNSF's regulations.

k;zy' -
       .-   7




.<- ,-                            m u a n t to NSF regulations, the Foundation must also determine whether to make a
        .;.
>',-

;
:,                       Jinding of misconduct based on a preponderance of the evidence. 45 CFR $ 6&9.2(c). After
"-                       reviewing the Investigative Report and the University Committee Report, NSF has determined
in     -                 that, based on a preponderance of the evidence, your plagiarism was knowing and constituted a
!:::            .
                          significant departure from accepted practices of the relevant research community. I am,
                          therefore, issuing a finding of research misconduct against you.


                                  NSFYsregulations establish three categories of actions (Group I, II, and m)that can be
                          taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
                          a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
                          requiring that an institution or individual obtain special prior approval of particular activities
                          from NSF; and requiring that an institutional representative certify as to the accuracy of reports
                          or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
                          actions include award -suspension or restrictions on designated activities or expenditures;
--          -     - --   _rcquidng special reviews ofrequests for funding; and requiring correction to the r e s e k h record.
                         .

                          45 CFR §689.3(a)(2). Group III actions include suspension or termination of a w a r E                   --   -
                          prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
                           suspension from participation in NSF programs. 45 CFR $689.3(a)(3).

                                     In determining the severity of the sanction to impose for research misconduct, I have
                             considered the seriousness of the misconduct; our determination that it was knowing; the
                             determination that it was an isolated event and not part of a pattern; your willingness to accept
                             responsibility for your actions; and the contrition that you demonstrated during the course of the
                             investigative process. I have also considered other relevant circumstances. 45 CFR 8 689.3 (b).


                                    I find your plagiarism to be serious because the amount of text that you copied was
                             substantial. This proposal received favorable comments from reviewers, and the review panel
                             convened by NSF placed your proposal in the "fundable" range. It is quite likely that this
                             proposal would have resulted in an award had the University not withdrawn it.


                                     There are, however, several mitigating factors. - First, you took responsibility for your
                             actions in this matter, and cooperated fully with the University's investigation and the follow-up
                             conducted by OIG. Second, the OIG investigated and expressly found that your actions were an
                             isolated event and not part of a pattern. Third, you sent a letter to the authors of the source
                                                                       ,
     ...
I
     ,    ,
 . . . . . .
..:.
                                     .       ,
                                                                                                              7




              .
                  , .                .
                                     .
   . .. . . . . : . . . . . .
  . .?>. :.,:.:;:.
          '

       .           .
:.,: * . ~.. . . . .. .. , . .                                                                                .   .
..,....
    , : ............
                                                 .
                                                     ;   ;.         .   '           . .
                                                                                                  .
     . , .. . .",: .. ,. .                                    ...                         .
                        ....
.,. ?.. .
.
     .. . .. ..
          .
                       . .. . .. . ..
                                                          proposal, as wcllas NSF, apologizing for yoir actions.
 .
              ,
                   n .,.
                             ..
                                                          measures the
                                                                    .
                                                                       University has already implemented.
                                                                                              .
..        ..
!. ...
   .:, .               .,_..




                                                                        .
                                         '       ,
:

 .                       . .,
                                                                                                      .   .


          .                      .                                                   & therefore, take the,following actions:
                   .         .           .
                                                                                .    If you submit any proposals to NSF from the date
      .                      .
                                                                                      an officid fkom your University must submit wri
                   .     .
                                                                                     to the rules of proper scholarship and attribution
 ,.                     .                                                             Guide to the Office o f Inspector General, 4201
                                                         ,                           .22230.
                                                                                      From the dateof this letter until November 30, 20
                                                                                      an NSF reviewer; advisor, or consultant.
                                                                                     You are required to complete an ethics training
                                                                                     2005, You must certifL in writing to the OIG that
                                                                            '




                                                                                                                                                   '
                                                                                                                                                       ..
                                                                                                                                                                . ....;.
                                                                                                                                                                :
                                                                                                                                                                ;
                                                                                                                                                                :    ::.      :.;.<;,&.:<.:; +: ..;...
                                                                                                                                                                               .
                                                                                                                                                                                ?.' *;.:.
                                                                                                                                                                                              L.,.
                                                                                                                                                                                           .........:,, . "
                                                                                                                                                                                                                        .. :... .
                                                                                                                                                                                                                                              .       .
                                                                                                                                                                                   ,*
                                                                                                                                                            ,
                                                                                                                                                                . ., ,. , ,, > <.. ,*..A ;i;<.;!..::i
                                                                                                                                                                     . -<:. . >   ;:. .,:..;,L:;..V..
                                                                                                                                                                                   .....
                                                                                                                                                        ,
                                                                                                                                                                 . ..,:                         ?<... ."!:
                                                                                                                                                                                                           ,
                                                                                                                                                                                                             .
                                                                                                                                                                :.. : ......
                                                                                                                                                                                     .:I :. :.,
                                                                                                                                                                           ,; :.{; ,,",,;::.;.'
                                                                                                                                                                     : . . .>. .I,;;. - ...                   .     .
                                                                                                                                                                    :.':.Y..-.-.,
                                                                                                                                                                                                 ?+. .
                                                                                                                                                                     . .. !:.,..;..'.t,.+...;.:,>>:;.              :;.                                ...
                                                                                                                                                        ......      .;j.*.;
                                                                                                                                                                     +?;i?.::'.?
                                                                                                                                                                                                    .,$+4..
                                                                                                                                                                                                     :,..
                                                                                                                                                                                                                  "?'


                                                                                                                                                                                                                  2;. ..
                                                                                                                                                                                                                             .. :.                .       .:
                                                                                                                                                                                                 :
                                                                                                                                                                                                 ;                                                ,
                                                                      Under NSF's regulations, you have 30 days after receipt of this letter& s*&cGapped
                                                              of this decision, in writing, to the Director of the Foundation. 45 Cm $68g~10(&$$(:&y-apped
                                                                                                                                                   ... e.I:.....                                                        .


                                                              should be addressed to the Director at the National Science Foundation, 4201~Wil&riBoulevard,
                                                                                                                                                        .:..!'.. . . . .
                                                                                                                                                     . .the--
                                                                                                                                                            .                                       ,..
                                                                                                                                                                                                                                                  .
     -.
      ..                                                                                                                                                                                                                             -.
                                                                                                                                            . . . . . :.
                                                                                                                                                                                                                                          ~




                                                                                                                   f0=izCOoid,                                           Assistant                            .

                                                              General Counsel,'at (703) 292-8060.                                                               .
                                                                                                                                                                     . .
                                                                                                                                                                               .          .           .                 .
                                                                                                                                                                                       . . . .

                                                                                                                                                                                   .       .. .               .



                                                                                                                                 Sincerely,



                                                                                                                         u       Joseph Bordogna
                                                                                                                                 Deputy Director

                                                              Enclosures
                                                              - Investigative Report
                                                              - 45 C.F.R.689
        National Science Foundation
        Office of Inspector General




                              Confidential
                          investigation Keport
                   Case Number A02 100050

                             June 7,2004


CONFIDENTIAL

NSF 01G FORh.122~(1103)
                                                        Summary

The Office of Inspector General (OIG) has concluded that the subject1plagiarized a successful
proposal written by scientists at another institution into his National Science Foundation (NSF)
proposal. As a result of its investigation, the Subject's University found that the Subject
committed research misconduct under its policy. The University reprimanded the Subject, and,
for a period of two years, required that an institutional official certify to the accuracy of reports
generated by the Subject under any of his Federal awards and provide assurance of compliance
with all relevant institutional policies, regulations and guidelines; required that two institutional
officials review all his requests for Federal funding prior to submission; and prohibited him fiom
serving as an NSF reviewer.

We recommend that NSF take the following actions as a final disposition in this case:

    1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
       misconduct against him.
    2. For a period of two years, require that an institutional official submit to OIG, in
       conjunction with any proposal submission involving the Subject as PI or co-PI, written
       assurance that the proposal adheres to the rules of proper scholarship and attribution as
       required by the NSF Grant Proposal Guide.
    3. For a period of two years, prohibit the Subject fiom serving as an NSF reviewer, advisor,
       or consultant.
    4. Require that the Subject complete ethics training.



We received an allegation that a Research Experiences for Undergraduates (REU) proposal2 was
plagiarized from a successfiil REU proposal3 written by scientists at another institution. We
compared the two proposals and found approximately 267 lines (roughly six and a half pages) of
identical andfor substantially similar text.4

We wrote to the Principal investigator (PI) requesting his perspective on the allegation.5 In
respgnse, we received a letter signed by the PI a d the co-PI (the ~ u b j e c t ) The
                                                                                   . ~ PIS stated that
they obtained a copy of the source proposal fiom the author, made an electronic copy, and used
this as the basis for their proposal. According to the PIS, "We scanned this proposal in order to
use its organizational structure for our own proposal. We added our own material and
systematically went about deleting the material fiom the original proposal. However, in our
haste, we neglected to edit our final proposal properly to eliminate any remaining parts of [the




 The PIS' response to our initial letter is at Tab 3.
source] proposal."7 Our analysis of the proposals and the PIS' response indicated that the
allegation had substance, and we formally referred the allegation to the ~ n i v e r s i t ~ . ~

                                        The Universitv's Investi~ation

Following its procedures, the University first conducted an inquiry. After concluding that there
was substance to the allegation, the University decided to withdraw the proposal, and appointed
an Investigation Committee to conduct the in~esti~ation.~   The Committee investigated whether
the PIS committed plagiarism by failing to attribute text used in their NSF proposal to the original
authors of that text. The Committee examined relevant documents and interviewed the PIS and
nine other witnesses, including administrative officers and colleagues.

The Committee considered the PIS' explanation that they scanned in the source proposal to
facilitate using it as a guide, that they intended to delete all source material fiom their proposal
prior to submission, and that in their haste to submit the proposal, they neglected to perform a
final review. The PIS characterized their failure to remove the source material as an
"oversight."l0 The Committee did not find this explanation credible. The Committee observed
that there were "35 passages of commonality between the two proposals," and that "if the final
check had been made and the [source] material excised, there would be little left that was
theirs.""

Regarding the Subject's participation in the process, the Committee's report does not distinguish
the respective roles of the PIS. However, the Committee elicited testimony bearing on this issue.
When asked whether he and the PI were equally involved in the development of the proposal, the
Subject stated:

              ... [the PI] took the initiative and when he presented me with a convincing argument that
              this is a program that we have a good chance of getting funding for, I went for it but I
              don't - there's no way that I'm going to shy away from the fact that I'm also responsible
              for what happened. I've said it, I've signed that letter, and when we worked on the
              proposal we worked together.[12]

More specifically, the Subject was present when the source proposal was scanned:

              He took the initiative, he talked to the program manager, got a copy of those previous
              abstracts and then got that proposal copy and stuff like that, but I was there when it was
              scanned and I was working on the proposal fiom that point on, so I'm not going to say
              that this was done without my knowledge.[131



     Tab 3.
'Our referral letter to the University is at Tab 4.
9
   The Committee's Investigation Report is at Tab 5. The attachments to the Report are available on request.
'O  Tab 3.
    Tab 5, p. 8.
12
    Tab 7, p. 5.
l 3 Tab 7, p. 5.
Neither of the PISwas able to tell the Committee precisely which sections each of them worked
on after the source proposal was scanned. The Subject characterized his contribution in general
terms: "My English is better than [the PI'S], so I did a lot of the rewording."14

In addition to investigating the PIS' use of text fiom another institution's proposal, the
Committee investigated the possible use of text fiom two successful NSF proposals submitted by
University faculty. The Committee did not find that the Subject was involved in copying the first
proposal.15 Text fiom the second proposal16was contributed by the author of that proposal, who
gave the PIS permission to use it.

Based upon a preponderance of the evidence and testimony provided by witnesses, the
Committee found that:

     1. [The PI] and [the Subject] plagiarized from the [source] document.
     2. [The PI] and [the Subject] knowingly committed research misconduct. Their action
        constitutes a significant departure from accepted practices of the [University] research
        community.[ 71

The Committee recommended:

     1. That [the PI] be barred fiom applying for any federal grant for two years; that he be
        barred fiom serving as a PI, co-PI, participant, or senior personnel member on any federal
        grant for two years; that he be barred fiom serving as an NSF reviewer for two years; that
        he withdraw fkom participation in any pending federal application.
     2. That [the Subject] be barred fiom applying for any federal grant for two years; that he be
        barred fi-om serving as a PI, co-PI, participant, or senior personnel member on any federal
        grant for two years.r181

The Committee noted that "the differential recommendations regarding [the PI] and [the Subject]
reflect the Committee's assessment of relative c~l~ability."'~

                    Subject's Response to the University's Investigation R e ~ o r t

The Subject raised three concerns in his response to the draft Investigation ~ e ~ o r tFirst,
                                                                                        . ~ ' he
objected to the mention of his name in a discussion of other proposal-related issues at the
University, on the grounds that he was not involved in these issues. Second, he requested that
witnesses interviewed by the Committee be asked to sign a confidentiality agreement. Third, he
objected to the recommended actions against him, on the grounds that "this recommendation




l7 Tab 5, p. 2.
l8 Tab 5, p. 3.
l9 Tab 5, p. 3.
20 The Subject's response to the Committee's Investigation Report is at Tab 8.
goes beyond the fiame work laid out by the [University] Research Misconduct Policy in that it
includes federal agencies not related to the subject proposal.'"1

We received a final copy of the Investigation Report fiom the Vice-Provost for Research. The
Report does not contain any response to the Subject's letter.

                                   University Action a~ainstthe Subiect

On December 12,2003, the University informed the Subject of the actions to be taken against
him." The University took action against the Subject by 1) reprimanding him, and, for a period
of two years, 2) requiring that an institutional official certifl to the accuracy of reports generated
under any Federal awards and provide assurance of compliance with all relevant institutional
policies, regulations and guidelines; 3) requiring that two institutional officials review all
requests for Federal funding prior to submission; and 4) prohibiting him fiom serving as an NSF
reviewer. These actions were effective December 1,2003.

Upon our receipt of the adjudication, we sent the Subject a copy of the University's Investigation
Report and invited him to submit additional comments to         In reply, the Subject sent us a
copy of his response to the adjudication." This response provided no new substantive
information.

                                                OIGYsAssessment

We believe that the Committee's Investigation Report is accurate and that the Committee
followed reasonable procedures. Accordingly, we accept the Investigation Report in lieu of our
own investigation of the Subject. However, we supplemented the Committee's investigation in
two ways, as discussed below. First, we examined the proposal reviews to help us assess the
seriousness of the Subject's misconduct. Second, because the Committee did not determine
whether the misconduct was an isolated event or part of a pattern, we also examined the
Subject's most recent NSF proposal.

A finding of research misconduct by NSF requires that (1) there be a significant departure f?om
accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence (45 C.F.R. §689.2(c) (2002)).

                                                        fie Act

The PI and the co-PI (the Subject) stated that they scanned in a successhl NSF proposal written
by scientists at another institution. T h ~ electronic
                                            s          copy became the first version of their
proposal, which they then proceeded to modify. Our comparison of the two proposals shows that
approximately 267 lines of the original proposal, amounting to roughly six and a half pages of


21 Tab 8.
22 The Deciding Official's adjudication letter to the Subject is at Tab 9.
23 Our letter to the Subject inviting comments is at Tab 10.
24
   The Subject's comments on the adjudication are at Tab 11.
text, were unchanged or closely paraphrased. The Subject told the Committee that he was
present when the source proposal was scanned and that he reworded parts of the scanned
proposal because his English was better than the PI'S. Copying or closely paraphrasing text
original to another author without attribution or any other form of acknowledgment is an act of
plagiarism.

NSF7sGrant Proposal Guide clearly states:

          NSF expects strict adherence to the rules of proper scholarship and attribution. The
          responsibility for proper attribution and citation rests with authors of a proposal; all parts
          of the proposal should be prepared with equal care for this concern. Serious failure to
          adhere to such standards can result in findings of misconduct in science.r251

Furthermore, the Subject signed the University's internal proposal review form, certifying that:

          The attached proposal (i) is complete in its technical content, (ii) adheres to the rules of
          proper scholarship, including specifically the proper attribution and citation for all text
          and graphics, (iii) is in accordance with specifications established by the sponsoring


The Subject clearly did not adhere to the rules of proper scholarship and attribution when he
committed his act. We concur with the University's assessment that the Subject copied material
fi-om the source proposal. His act constitutes a significant departure fiom accepted practices of
the research community.

                                                  Intent

The PIS stated that they intended to use the source proposal as a guide, and that they scanned it
"in order to use its organizational structure for our own proposal." They stated that "it was never
our intention to use the material fiom the successful proposal," and characterized the absence of
any citation of the source material as an "oversight."27 We agree with the Investigation
Committee that this explanation "strains credibility."28

In terms of organizational structure, REU proposals require six sections: (a) Overview, (b)
Nature of Student Activities, (c) The Research Environment, (d) Student Recruitment and
 Selection, (e) Project Evaluation and Reporting, and (f) Results fiom Prior            If the PIS
had intended to use only the organizational structure of the source proposal, they could have
typed these six headings and used their own text. Instead, the PIS appropriated a successfid REU
proposal and reused not merely the organizational structure, but as much of the original text as
they could.



25 NSF   02-2, section I.B.
26 The Subject's proposal
                        certification is at Tab 1.
27 ~ a 3.b
2s Tab 5, p. 8.
29 NSF 02-136, "Research Experiences for Undergraduates (REU)".
Where the guidelines called for an "Overview" discussing the objectives of the REU site, the PIS
were able to reuse two entire pages of the source proposal with only a few changes in the source
text. To this they added two new paragraphs, one describing a proposed seminar on research
ethics. For the second section, "Nature of Student Activities," they were able to reuse two and a
half pages of the source proposal. In the required subsection "Example Project Descriptions,"
they were able to reuse only the introductory paragraph from the source proposal. They did so
and deleted the rest. The third section, "The Research Environment," requires a discussion.of the
PI, the faculty, and the institution. Here they found only a few sentences that could be reused;
they deleted the rest. In the fourth section, "Student Recruitment and Selection," they
paraphrased four of the five source paragraphs. In the fifth section, "Project Evaluation and
Reporting," they were able to reuse the entire source (approximately one page). The final
section, "Results fi-om Prior Support," was necessarily specific to the PIS. They replaced the
original text with one sentence of their own.

REU proposals may also include an "Optional Ethics Component" for up to $4,000 in additional
funding each year. The PIS chose to include this component, which is attached as an appendix to
their proposal. According to the Committee's Report, the director of the University ethics center
contributed a write-up for thls part of the proposal.30 The Subject testified that "[the write-up]
wasn't long enough and I had to add some stuff to it and try to edit it some ..."31 It follows that
the Subject was familiar with the proposed ethics activities. As summarized in the body of the
proposal, "Issues to be addressed in these seminars include: research involving the use of human
subjects; research integrity; misconduct in research; conflicts of interest; intellectual property,
mentoring, and the social responsibilities of researcher^."^^ We conclude that the Subject was
aware of ethical standards while he was working on the proposal.

The Investigation Committee concluded that the Subject acted knowingly. We concur.

                                            Standard of Proof

We conclude that a preponderance of the evidence shows that the Subject committed research
misconduct when he knowingly (1) participated in creating an NSF proposal fi-om an electronic
copy of another proposal, (2) edited the proposal without either distinguishing or removing all
the copied text, (3) failed to provide any attribution or acknowledgement to the authors of the
source proposal, and (4) as co-PI, participated in the submission of the proposal to NSF.

                   The Subject's Actions as an Isolated Event or Part of a Pattern

The Investigation Committee did not discuss whether the.Subjectysbehavior was an isolated
incident or part of a pattern. Accordingly, we examined a recent NSF proposal on which the
Subject is C O - P I . ~ ~We did not identify any text that was not properly attributed. Our assessment
is that the Subject's misconduct appears to be an isolated event.



30 Tab 5, p. 10.
3' Tab 7, p. 8.
32 Tab 1, C-2.
33 We examined NSF p r o p o s a l , submitted 12/1/03.The Subject's NSF PI History is at Tab 12.
                                               Subiect's Response

We sent our draft Report of Investigation to the Subject on April 16,2004, and requested that he
send us any comments by May 21.34 The Subject responded to our draft Report in a letter dated
May 1 1 , 2 0 0 4 . ~In~ his response, the Subject requested that our recommendations be aligned
with those of the University. Specifically, he asked that (1) the period of NSF's actions not
extend beyond the end of the University's actions (November 30,2005), and that (2) we not
recommend one year of debarment. The Subject also apologized to NSF for his role in this
matter, informed us of his intention to apologize to the PIS of the source proposal, and stated that
this matter has caused him to reflect on the proper conduct of research. On May 17, the Subject
forwarded to us an e-mail message sent to the PIS that same day, to which was attached a signed
letter of apology.36

NSF's Misconduct Regulation states that severe misconduct is an independent cause for
debarment (45 C.F.R. $689.2(e) (2002)). NSF's Debarment Regulation also states (45 C.F.R.
5620.300):

           The existence of a cause for debarment, however, does not necessarily require that the
           person be debarred; the seriousness of the person's acts or omissions and any mitigating
           factors shall be considered in making any debarment decision.

We believe the Subject has taken responsibility for his actions. Consistent with similar cases
involving an unfunded proposal, an isolated incident and a written apology, we have therefore
revised our Report to recommend that the Subject be required to complete ethics training in lieu
of debarment. In consideration of the Subject's full cooperation with our investigation, we have
also revised our other recommendations to replace "For two years fkom the resolution of this
case" with the phrase "For a period of two years."

                                         OIG's Recommended Disposition

In deciding what actions are appropriate when research misconduct is found, NSF must consider
several factors. These factors include how serious the misconduct was; the degree to which the
misconduct was knowing, intentional, or reckless; whether it was an isolated event or part of a
pattern; whether it had significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and other relevant circumstances (45 C.F.R.
§689.3(b) (2002)).

We believe the amount of copied text is substantial and that the misconduct was very serious.
Reviewers cc&mented positively on sections of the proposal that remained nearly identical to the
source proposal, and the review panel placed the proposal in the fundable range.37 Had the
University not withdrawn the proposal, it might well have resulted in an award. In the Subject's
defense, his misconduct appears to be an isolated event. The Subject took responsibility for his
             -                       -




34   Our letter to the Subject is at Tab 14.
35 The Subject's response to the draft Report is at Tab 15.
36 The Subject's e-mail message and letter of apology are at Tab 16.
37
   The proposal reviews and panel summary are at Tab 13. The Panel's rating of "Fund If Possible" placed the
proposal in the fundable range.
role in this matter and expressed remorse during his interview with the ~ o m m i t t e e The
                                                                                          .~~
Subject also apologized to NSF and sent a letter of apology to the PIS of the source proposal.

Consistent with the University's actions, we recommend that NSF take the following actions as a
final disposition in this case:

     1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
        misconduct against him.39
     2. For a period of two years, require that an institutional official submit to our office, in
        conjunction with any proposal submission involving the Subject as PI or co-PI, written
        assurance that the proposal adheres to the rules of proper scholarship and attribution as
        required by the NSF Grant Proposal ~ u i d e . ~ '
     3. For a period of two years, prohibit the Subject fiom serving as an NSF reviewer, advisor,
        or c~nsultant.~'
     4. Require that the Subject complete ethics training.




38 The Subject's testimony is at Tab 7.
39 A letter of reprimand is a Group I action.
40 Assurance of compliance is a Group I action.
41 Prohibition from serving as a reviewer, advisor, or consultant is a Group I11 action.
